HHS/OIG, Audit - "Philadelphia Countys Title IV-E Claims Based on
Contractual Per Diem Rates of $300 or Less for Foster Care Services From October
1997 Through September 2002," (A-03-07-00560)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Philadelphia
Countys Title IV-E Claims Based on Contractual Per Diem Rates of $300 or Less
for Foster Care Services From October 1997 Through September 2002," (A-03-07-00560)
May 22, 2008
Complete
Text of Report is available in PDF format (5.29 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We estimated that from October 1997 through September 2002,
Pennsylvania improperly claimed at least $56.5 million of the total $562.3
million (Federal share) claimed for Title IV-E reimbursement on behalf of
Philadelphia County children for whom the per diem rates were $300 or less.
Title IV-E of the Social Security Act, as amended, authorizes States to claim
Federal funding for maintenance costs through the Administration for Children
and Families (ACF).  The funding covers room and board payments to licensed
foster care providers, administrative costs, and training.  Some claims were unallowable because the services were provided to children
whose situations did not meet eligibility requirements or provided by unlicensed
foster care facilities.  We were unable to determine the allowability of
other claims because the contractors per diem rates did not distinguish between
services that were eligible or ineligible for Title IV-E reimbursement.
We recommended that the State refund $56.5 million and work with ACF to
determine the allowability of $100 million related to claims that included both
allowable and unallowable services; work with ACF to identify and resolve any
unallowable claims made after the audit period and refund the appropriate
amount; discontinue claiming Title IV-E
reimbursement for ineligible children and services and unlicensed facilities;
and direct Philadelphia County to develop rate-setting procedures that
separately identify maintenance and other costs, including related
administrative costs, so that claims are readily allocable to the appropriate
Federal, State, and local funding sources.  The State disagreed with our
findings and recommendations and provided additional documentation on some
claims.  Based on this documentation, we revised the report accordingly.